                                                                      ~\,SECV
                                                                     uV-­  ~
                                                                 ~
                                                                 \h~111111~~
                                                                    .VIS~

                                                  SOCIAL                  SECURITY
                                                   Office   of the        Inspector       General
MEMORANDUM                                                                ,
Date;       MAY      -7      2001
                                                                                                              Refer To:

To:
        Larry G. Massanari
        Acting Commissioner
                                                                                             ~
         of Social Security

From:
        I nspector        General




Subject: Controls         Over      Recording   Supplemental         Security         Income        Overpayments
        (A-O 1-00-10005              )



        The attached final report presents the results of our audit. Our objective was to
        determine whether the Social Security Administration's internal controls are adequate to
        ensure that Supplemental Security Income overpayments on closed records are
        identified so that they can be recovered from current benefit payments.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                                                  ~K.
                                                                      f           James        G.    H~.



        Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION




  CONTROLS OVER RECORDING
   SUPPLEMENTAL SECURITY
    INCOME OVERPAYMENTS

    May 2001    A-01-00-10005



   AUDIT REPORT

                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  � Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


  � Independence to determine what reviews to perform.

  � Access to all information necessary for the reviews.

  � Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                Executive Summary

OBJECTIVE

Our objective was to determine whether the Social Security Administration’s (SSA)
internal controls are adequate to ensure that Supplemental Security Income (SSI)
overpayments on closed records are identified so that they can be recovered from
current benefit payments.

BACKGROUND

SSA considers an individual overpaid when he or she receives an amount for any
period, which exceeds the total amount that should have been paid for that period.
Collection activities are initiated when a SSI overpayment is recorded on the recipient's
Supplemental Security Record (SSR). In many cases, the overpayment is recorded at
the same time that the recipient becomes ineligible for SSI benefits and those benefits
are suspended or terminated.

Once a recipient’s benefits are terminated, that recipient must reapply to receive
benefits again. If the recipient is again determined to be eligible for benefits based on
the new application, a new SSR is created and the prior SSR is retained for historical
data only. In prior years, when this occurred, any outstanding overpayments recorded
on the prior SSR had to be manually transferred to the new SSR for collection activities
to be initiated and for recoveries to be made against the current benefit payments.

In 1990, SSA declared a material weakness in the SSI program related to “SSI Record
Reestablishment.” In 1991, SSA also declared a material weakness related to reporting
and accounting of SSI overpayments. SSA cleared the majority of the 1990 material
weakness in 1997 by implementing the Modernized Supplemental Security Income
Claims System (MSSICS) Release 4.4. In 1999, SSA initiated system improvements to
address the remaining portion of the 1990 material weakness regarding record
reestablishment by implementing an improvement to MSSICS called Terminated
Record Balancing and Debt Transfer (TREBDET). TREBDET’s main purpose is to
reconcile overpayments on closed records and transfer debt information to the current
record. However, TREBDET is not effective in transferring all identified overpayments.

SSA management recognized that the implementation of TREBDET would not
completely correct its internal control weaknesses related to overpayments. As a result,
SSA implemented the Debt Recovery Program in 2000. The program is designed to
transfer outstanding overpayments to current records created prior to the inception of
TREBDET. Additionally, this program was designed to augment one of TREBDET’s
limitations.




Controls Over Recording SSI Overpayments (A-01-00-10005)                              i
RESULTS OF REVIEW

SSA’s internal controls did not ensure that all SSI overpayments on closed records
were identified and pursued for collection from current benefit payments. We identified
outstanding overpayments that were not transferred to newly established SSRs. As a
result, SSA missed the opportunity to recover a substantial amount of SSI
overpayments through withholding benefits when SSA resumed payments to these
recipients. Based on the results of our statistical sample, we estimate that, as of
February 2000, $93.54 million in overpayments should have been transferred to
35,138 recipients’ current records. Further, SSA could have already recovered
$42.87 million in overpayments from these recipients’ current benefit payments if the
overpayments had been transferred to the newly established SSRs when their
payments resumed. We also estimate that SSA could recover $20.08 million in
outstanding overpayments from recipients during the next 12 months.

CONCLUSIONS AND RECOMMENDATIONS

Since at least 1990, SSA has known that its internal controls were not able to ensure
that SSI overpayments on closed records were identified and collected when SSA
resumed benefit payments to SSI recipients by establishing new SSRs. Since 1997,
SSA has implemented improved controls in this area through MSSICS and TREBDET.
However, these system improvements were prospective in nature and are not effective
under all circumstances. As a result, SSA has to clean-up SSRs created prior to
TREBDET and periodically review new SSRs created outside MSSICS. To address
this weakness, SSA developed a Debt Recovery Program. Approximately 54 percent of
the 38,194 cases we identified meet SSA’s criteria for being moved to new records by
the Debt Recovery Program. If these individuals received benefit payments during July
or August 2000, when the Debt Recovery Program was run, these overpayments
should have been moved to new records. While SSA’s July/August 2000 run of the
Debt Recovery Program was successful, approximately 46 percent of the overpayments
we identified remain on prior SSRs and still need to be moved forward to new SSRs.

We recommend that SSA:

•	 Continue to periodically run the Debt Recovery Program to ensure that prior
   overpayments on closed records are identified and pursued for collection;

•	 Pursue collection of the 17,675 overpayments we identified which do not meet the
   criteria for selection by the Debt Recovery Program; and

•	 Review the 20,519 overpayments we identified that meet the criteria for being
   moved forward by the Debt Recovery Program and ensure that these outstanding
   overpayments were transferred to new SSRs.




Controls Over Recording SSI Overpayments (A-01-00-10005)                           ii
AGENCY COMMENTS

In response to our draft report, SSA agreed with our recommendations. (See
Appendix B for SSA’s comments.)




Controls Over Recording SSI Overpayments (A-01-00-10005)                     iii

                                                                    Table of Contents

                                                                                                              Page


INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW.......................................................................................... 5


   Overpayment Coding on the Closed Records .................................................... 6


   TREBDET Created to Improve Controls............................................................. 7


   SSA’s Debt Recovery Program .......................................................................... 8


         Sample Cases Eligible for Selection by Debt Recovery Program................ 8

         Sample Cases Excluded from Debt Recovery Program .............................. 9

         “T30” Cases Excluded from Debt Recovery Program.................................. 9

         Differences Between OIG Sample Population and SSA’s Debt

         Recovery Program ..................................................................................... 10


CONCLUSIONS AND RECOMMENDATIONS .................................................... 11


APPENDICES

APPENDIX A – Sampling Methodology and Results

APPENDIX B – Agency Comments

APPENDIX C – OIG Contacts and Staff Acknowledgments




Controls Over Recording SSI Overpayments (A-01-00-10005)
                                                               Acronyms

FBR               Federal Benefit Rate


FO                Field Office


MSSICS            Modernized Supplemental Security Income Claims System


OIG               Office of the Inspector General


SSA               Social Security Administration


SSI               Supplemental Security Income


SSR               Supplemental Security Record


TREBDET           Terminated Record Balancing and Debt Transfer





Controls Over Recording SSI Overpayments (A-01-00-10005)
                                                                             Introduction

OBJECTIVE

Our objective was to determine whether the Social Security Administration’s (SSA)
internal controls are adequate to ensure that Supplemental Security Income (SSI)
overpayments on closed records are identified so that they can be recovered from
current benefit payments.

BACKGROUND

In 1972, Congress enacted the SSI program under title XVI of the Social Security Act.1
The SSI program provides a minimum level of income to financially needy individuals
who are aged, blind or disabled.2 The means-tested nature of the SSI program requires
that individuals’ needs be matched with their financial circumstances on a monthly basis
for purposes of determining benefit eligibility and payment amounts. Individual financial
circumstances may change often, requiring SSA to frequently reassess and verify
recipients’ eligibility and payment amount.

The majority of SSI overpayments stem from recipients’ failure to report changes in one
of three areas: income (particularly wages), financial accounts, or living arrangements
(particularly institutionalization). As previously stated, SSI eligibility and benefit
amounts are determined on a monthly basis. Therefore, recipients’ SSI eligibility or
payment amounts can change from month-to-month as their income, resources or living
arrangements change.

SSA considers an individual overpaid when he or she receives an amount for any
period, which exceeds the total amount that should have been paid for that period.3
Collection activities are initiated when a SSI overpayment is recorded on the recipient's
                                         4
Supplemental Security Record (SSR). In many cases, the overpayment is recorded at
the same time that the recipient becomes ineligible for SSI benefit payments and those
benefits are suspended or terminated.

Once a recipient’s benefits are terminated, his or her SSR is closed and the recipient
must reapply to receive benefits again. If the recipient is determined to be eligible for
benefits based on the new application, a new SSR is created and the prior SSR is
retained for historical data only. In prior years, when this occurred, any outstanding
overpayments recorded on the prior SSR had to be manually transferred to the new

1
    20 C.F.R. § 416.101
2
    20 C.F.R. § 416.110
3
    20 C.F.R. § 416.537(a)
4
 SSA begins collection activities after the overpayment appeal period if the recipient does not file an
appeal or request a waiver.


Controls Over Recording SSI Overpayments (A-01-00-10005)                                                  1
SSR. Once posted to the new SSR, collection activities could be initiated and
recoveries made against the benefits paid. SSA has acknowledged that, “Because the
                                                                                      5
reestablishment of records must be done manually, the process is highly error prone.”
In recent years, SSA has improved the overpayment transfer process so that many
overpayments are automatically transferred from closed records. However, manual
processing must still be used in cases where the automated process is not used or is
not effective.

In 1990, SSA declared a material weakness in the SSI program related to “SSI Record
Reestablishment.”6 In 1991, SSA also declared a material weakness related to
reporting and accounting of SSI overpayments.7 SSA cleared the majority of the 1990
material weakness in 1997 by implementing the Modernized Supplemental Security
Income Claims System (MSSICS) Release 4.4. In 1999, SSA initiated system
improvements to address the remaining portion of the 1990 material weakness
regarding record reestablishment by implementing an improvement to MSSICS called
Terminated Record Balancing and Debt Transfer (TREBDET). TREBDET’s main
purpose is to reconcile overpayments on closed records and transfer debt information
to the current record. SSA reported that in the first year of TREBDET use, monthly
overpayment transfers increased 200 percent to an average of about $31.5 million.
Additionally, SSA estimates that through the first 4 months of Fiscal Year 2001, monthly
overpayment transfers averaged about $29 million. However, TREBDET is not
effective in transferring all identified overpayments.

SSA management recognized that the implementation of TREBDET would not
completely correct internal control weaknesses related to overpayments. As a result,
SSA implemented the Debt Recovery Program in 2000. The program is designed to
transfer outstanding overpayments to current records created prior to the inception of
TREBDET. Additionally, this program was designed to augment one of TREBDET’s
limitations.8

Laws, Regulations and SSA’s Policies

The following laws, regulations and SSA policies provide a summary of the criteria
relevant to this audit:




5
    SSA internal memorandum regarding “Title II and Title XVI Material Nonconformances,” July 8, 1993.
6
  The identified weaknesses include: “(1) failure to post existing overpayments and underpayments to the
reestablished record, and (2) failure to develop overpayments and underpayments in cases in which the
records are being terminated and reestablished.”
7
  The weaknesses related to SSA’s inability to properly account for and report benefit overpayments in
accordance with the Federal Managers’ Financial Integrity Act.
8
  TREBDET only automatically transfers outstanding overpayments to reestablished records if the new
records are created in MSSICS.



Controls Over Recording SSI Overpayments (A-01-00-10005)                                            2
•	 The Social Security Act requires SSA to recover overpayments when discovered.9
   SSA should recover overpayments by adjusting future benefits or by other means.
   SSA generally limits the monthly adjustment of an individual’s SSI payment to the
   lessor of: (1) 10 percent of the recipient’s total countable income plus SSI and State
   supplementary payments for that month, or (2) the recipient’s entire monthly benefit.

•	 SSA requires Field Office (FO) employees to transfer outstanding overpayments on
   closed SSRs to the newly created SSRs. When manually transferring these
   overpayments, FO staff are required to annotate the overpayment on the closed
   SSRs. To close the overpayment on the old record, the FO staff should indicate
                                                        10
   that the overpayment was transferred to a new record. FO staff should then note
   on the new record that the corresponding overpayment was transferred from the old
   record.11

SCOPE AND METHODOLOGY
To accomplish our objective, we:

•	 Reviewed sections of the Social Security Act and SSA’s regulations, rules, policies
   and procedures pertaining to SSI overpayments.

•	 Interviewed SSA disability specialists to obtain an understanding of how
   overpayments should be processed and recorded on the SSR.

•	 Obtained a data file of 16.5 million SSRs containing overpayments recorded in or
   after 1990. Through data analysis we identified 38,194 SSRs that showed
   recipients with outstanding overpayments of $500, or greater, on closed records.
   The outstanding overpayments on these records totaled $100,594,455. These
   38,194 recipients were receiving benefit payments as of February 2000; however,
   the outstanding overpayments were not recorded on the current SSRs. See
   Appendix A for details of our sample results.

•	 Determined which of the 38,194 overpayments would have been selected by SSA’s
   Debt Recovery Program. Our analysis found that 20,519 (54 percent) of the 38,194
   SSRs we identified meet SSA’s criteria for being selected by the Debt Recovery
   Program. The remaining 17,675 (46 percent) of the overpayments we identified
   would not be selected by SSA’s Debt Recovery Program as it is currently designed.

•	 Selected a random sample of 150 of the 38,194 SSRs, and projected our sample
   results to the population. For each sampled case, we determined: (1) the

9
    As stated in Section 1631 [42 U.S.C. 1383] (b) (1) (A) and (B) of the Social Security Act.
10
  SM 01311.350 states the overpayment on the closed record should be coded “Q,” indicating the
overpayment was transferred to a new record.
11
  SM 01311.315 states the overpayment on the new record should be coded “P,” indicating the
overpayment was transferred from a prior record.


Controls Over Recording SSI Overpayments (A-01-00-10005)                                         3
      overpayment amount not transferred to the current SSR; and (2) the overpayment
      amount that could have been recovered from SSI payments if these overpayments
      had been transferred to the newly established SSRs when SSA resumed benefit
      payments to the recipients.12

•	 From the 16.5 million SSRs, identified 24,249 SSRs with outstanding overpayment
   amounts between $30 and $500. These overpayments, totaling $5,980,623,
   remained on closed records even though these individuals were receiving benefit
   payments in February 2000. We did not include overpayments less that $500 in our
   sample population.

•	 From the 16.5 million SSRs, identified 16,542 SSRs with outstanding overpayments
   of $500, or greater, which had not been transferred from closed records. These
   overpayments, totaling $49,767,774, were for individuals in suspended pay status
   as of February 2000. We did not include these cases in our sample population
   since these individuals were not receiving benefit payments in February 2000.13

•	 Discussed our sample cases with SSA FO personnel to confirm the overpayment
   amounts and to initiate collection activities. For those SSRs reestablished after
                                  14
   implementation of TREBDET, we determined whether the cases involved
   reestablished records created in MSSICS;15 and asked FO personnel to explain why
   reestablished records were not created in MSSICS.

We performed our audit in Boston, Massachusetts between May and October 2000.
The entities audited were SSA’s FOs and the Office of Financial Policy and Operations
under the Deputy Commissioner for Finance, Assessment and Management. We
conducted our audit in accordance with generally accepted government auditing
standards.




12
  We estimated the recovery amount by assuming SSA would have withheld 10 percent of the Federal
Benefit Rate (FBR) from current payments. If SSA had initiated recovery of these overpayments, SSA
could have recovered the lessor of: (1) 10 percent of the recipient’s total countable income plus SSI and
State supplementary payments, or (2) the recipient’s entire monthly benefit. However, we used a
conservative approach and assumed only 10 percent of the FBR would have been recovered.
13
  MSSICS and SSA’s Debt Recovery Program should transfer these outstanding overpayments to current
records if benefit payments to these individuals resume.
14
     TREBDET was implemented in July 1999.
15
  SSA staff stated that TREBDET would automatically transfer outstanding overpayments to newly
established records only if those new SSRs were created in MSSICS. However, TREBDET only transfers
outstanding overpayments on the record immediately preceding the current SSR.


Controls Over Recording SSI Overpayments (A-01-00-10005)                                              4
                                                           Results of Review

SSA’s internal controls did not ensure that all SSI overpayments on closed records
were identified and pursued for collection from current benefit payments. We identified
outstanding overpayments that were not transferred to newly established SSRs. As a
result, SSA missed the opportunity to recover a substantial amount of SSI
overpayments through withholding benefits when SSA resumed payments to these
recipients. Through data analysis we identified a population of 38,194 SSRs with
$100.59 million in outstanding overpayments on closed SSRs which were not recorded
on the current SSRs of individuals who were receiving benefit payments.

Based on the results of our statistical sample, we estimate that, as of February 2000,
$93.54 million16 in overpayments should have been transferred to 35,138 recipients’
current records. Further, SSA could have already recovered $42.87 million in
overpayments from these recipients’ current benefit payments if the overpayments had
been transferred to the newly established SSRs when their payments resumed. We
also estimate that SSA could recover $20.08 million in outstanding overpayments from
recipients during the next 12 months, if SSA withholds 10 percent of the Federal Benefit
Rate (FBR) from current payments.

                                                             We randomly selected a
           SSI Overpayment Sample Results                    sample of 150 of the
                                                             38,194 SSRs to verify
                                                             that the individuals had
                                                             outstanding
                                                             overpayments on their
      Cases with
                                            Invalid
                                                             closed records. We also
     Outstanding
    Overpayments                         Overpayments        determined how much of
      on Closed                                              these overpayments
                                              12             could have been
       Records
                                                             recovered by SSA
         138
                                                             through withholding from
                                                             benefit payments had
                                                             the overpayments been
                                                             transferred to the current
                                                             SSRs when benefit
                                                             payments to these
individuals resumed. We found that 138 of the 150 sampled records were for recipients
currently receiving benefit payments who also had outstanding overpayments on closed
SSRs that totaled $367,343. Additionally, we determined that SSA could have
recovered $168,368 from these individuals’ SSI payments if the overpayments had
been recorded on the new SSRs when they were created.



16
  This figure does not reflect actions SSA took to automatically transfer overpayments to current pay
records during the period in which our audit work was performed.


Controls Over Recording SSI Overpayments (A-01-00-10005)                                                5
In the remaining 12 sample cases, the outstanding overpayments were not valid and
were not included in our sample results. These overpayments were still recorded on
the SSRs as outstanding, but FO staff determined that the overpayments were
erroneous. If these overpayments had been properly coded on the SSRs, they would
not have been identified as still outstanding during our data analysis.

OVERPAYMENT CODING ON THE CLOSED RECORDS

The 138 recipients with SSI overpayments which were not transferred to the current
records had their overpayments coded in various ways (see table 1).

                    Table 1: Coding of Overpayments on the Closed Records

  Overpayment
Coding on Closed                          Description of Coding                        Number of Cases
     Record
      DB                      Unwilling or unable to repay                                       98

              Q               Overpayment transferred to new record                              23

             DM               Out of the country or unable to locate                             10

              D               Collection or suspension of collection                              6
                              via check adjustment
             DA               Collection delayed pending activation                               1
                              of automated collection decision
            Total                                                                               138

In 98 of our sampled cases, codes on the closed records indicate that the recipients
were unwilling or unable to repay their overpayments. For example, in one of these
98 cases, the recipient’s first SSR was terminated because the recipient was an inmate
                        17
in a public institution. As a result, the SSR was terminated in March 1998 and an
overpayment totaling $2,535 was identified and coded as “DB.” In June 1998, the
recipient reapplied for SSI benefits and a new SSR was created (Record 2). However,
the FO Claims Representative who created the new SSR neglected to transfer the
outstanding overpayment from the closed SSR, as required. The Claims
Representative responsible for creating the new SSR could not explain why the
overpayment remained outstanding; however, she said the overpayment was valid. We
estimate that SSA missed the opportunity to collect $1,152 from this recipient through
withholding 10 percent of the FBR from the individual’s SSI payments from July 1998
through May 2000. Further, we estimate that SSA could recover an additional $614 of
this outstanding overpayment from payments made to the recipient during the next
12 months.



17
     The Social Security Act prohibits the payment of SSI benefits to inmates in public institutions.


Controls Over Recording SSI Overpayments (A-01-00-10005)                                                6
                                                             In 23 of our sampled cases,
              Figure 1: ZQ Example Case                      codes on the closed records
                                                             indicated that the
                           Closed Record 1 contained an      overpayments were
                           outstanding overpayment of
          Record 1         $6,334 coded “ZQ” (overpayment
                                                             transferred to new records.
                           carried forward to new record).   However, these outstanding
                                                             overpayments were not
                                                             recorded on the current SSRs.

                                                          For example, in one of these
                         Closed Record 2 showed the
                                                          23  cases, the recipient’s first
          Record 2       recipient’s payments as          SSR was terminated in March
                         suspended due to her citizenship 1995 because it was
                         status.                          determined the recipient had
                                                          excess resources. In
                                                          September 1996, a new SSR
                                                          was created when the
                         Record 3 shows the recipient
                                                          recipient reapplied for
                         receiving benefit payments;      benefits. However, the
          Record 3       however, the outstanding         recipient’s application was
                         overpayment was not carried      denied because she was not
                         forward from the prior record.   eligible. In June 1998, the
                                                          recipient’s 1996 application
was reconsidered and a third SSR was created. Record 3 showed SSA resuming
benefit payments to the recipient and issuing a lump sum SSI payment for January
through July 1998. In August 1998, the outstanding overpayment on Record 1 totaling
$6,334 was annotated as having been transferred to a new record; however, the
outstanding overpayment was not on Record 3.

When asked to explain why the overpayment remained outstanding, a Management
Support Specialist from the FO stated it was a Claim Representative’s oversight. As a
result of this overpayment not being transferred to the new SSR at the time it was
created, we estimate that SSA missed the opportunity to collect $1,449 from this
recipient’s SSI benefits via withholding 10 percent of the FBR from the individual’s SSI
payments for January 1998 to May 2000. We estimate that SSA could recover an
additional $614 of this outstanding overpayment from SSI benefit payments made to
the recipient during the next 12 months.

TREBDET CREATED TO IMPROVE CONTROLS

On July 24, 1999, SSA implemented a system improvement to MSSICS called

TREBDET to strengthen internal controls regarding record reestablishment.

TREBDET’s main purpose is to reconcile overpayments on closed records and transfer

debt information to current SSRs. TREBDET should automatically transfer outstanding

overpayments from closed records to newly established records created after

July 24, 1999. However, SSA staff informed us that TREBDET has several limitations.





Controls Over Recording SSI Overpayments (A-01-00-10005)                              7
First, TREBDET does not have the ability to transfer outstanding overpayments from a
closed record that is not directly preceding the reestablished record.18 Additionally,
TREBDET will only automatically transfer outstanding overpayments to reestablished
SSRs if the new records are created in MSSICS.19

Our population included cases with records reestablished as late as February 2000—
after TREBDET’s implementation in July 1999. As part of our case analysis, we
identified sample cases processed after implementation of TREBDET and assessed
why TREBDET did not automatically transfer these outstanding overpayments to new
SSRs. For 15 of the 138 cases in our sample, reestablished SSRs were created after
implementation of TREBDET, but those outstanding overpayments were not transferred
to new SSRs. Results of our review of these 15 cases confirm that TREBDET does not
ensure all outstanding overpayments are transferred from closed records. For these
15 cases, we found that:

•     10 reestablished records were created manually (MSSICS was not used); and

•	 5 cases had outstanding overpayments on closed records more than one record
   prior to the new SSRs.

SSA’s DEBT RECOVERY PROGRAM

SSA management recognized that the implementation of TREBDET would not
completely correct internal control weaknesses related to overpayments. As a result,
SSA began working on a Debt Recovery Program in 1998. The program was designed
to transfer outstanding overpayments to current records created prior to the inception of
TREBDET. Additionally, this program was designed to augment one of TREBDET’s
limitations.20 SSA’s initial runs of the Debt Recovery Program occurred on July 31,
2000 and August 28, 2000. As a result of SSA’s Debt Recovery Program, about
$74.3 million in uncollected overpayments were transferred to the latest record for
recovery on about 42,200 accounts.

Sample Cases Eligible for Selection by Debt Recovery Program

The outstanding overpayments identified by the Debt Recovery Program included a
substantial portion of our audit sample. Of our 150 sampled cases, 83 were eligible for
selection by the program. We determined that 72 of these 83 outstanding
overpayments were transferred to current records.21 We reviewed the remaining

18
  In other words, if the outstanding overpayment was located on Record 1 and the reestablished record
was Record 3, the overpayment would not be transferred automatically by TREBDET.
19
     FO staff have the ability to manually reestablish records by not using MSSICS.
20
  TREBDET only transfers outstanding overpayments on the record immediately preceding the current
SSR.
21
  In 29 of these 72 cases, we confirmed that the overpayments were identified in July or August 2000 by
the Debt Recovery Program. In the remaining 43 cases, because we asked the FOs to transfer valid


Controls Over Recording SSI Overpayments (A-01-00-10005)                                           8
11 cases and found that:

•   6 recipients did not receive benefit payments during July/August 2000;

•   3 overpayments were resolved by SSA prior to the Debt Recovery Program;

•   1 overpayment was waived; and

•	 1 case had an overpayment sequence balancing problem that prevented the Debt
   Recovery Program from computing the proper amount of the overpayment.

Sample Cases Excluded from Debt Recovery Program

The remaining 67 of our 150 sample cases (45 percent) were not selected by the Debt
Recovery Program for several reasons.

•	 The program did not select 32 cases because the outstanding overpayments were
   located on closed SSRs that were not directly preceding the current records. The
   Debt Recovery Program was not designed to transfer these types of outstanding
   overpayments.

•	 The program did not select 27 cases because the outstanding overpayments were
   marked as already transferred from the closed records (coded as “Q”). SSA did not
   design the program to transfer these types of outstanding overpayments.

•	 The program did not select the remaining 8 cases because the outstanding
   overpayments were on closed records with terminated status codes of “T30.”

“T30” Cases Excluded from Debt Recovery Program

SSA decided not to use the Debt Recovery Program to transfer outstanding
overpayments on closed records that had a terminated status code of “T30,” which
means “Manual termination.” In SSA’s opinion, these outstanding overpayment
amounts may be inaccurate. However, our sampling results have shown that
outstanding overpayments on closed records with termination codes of “T30” are valid.

Specifically, of the 150 cases we sampled, 25 had outstanding overpayments on
terminated SSRs coded “T30.” We found that 23 of these 25 cases (or 92 percent) had
valid outstanding overpayments and the responsible FOs confirmed our findings. For
example, in one case, an outstanding overpayment of $8,600 was located on Record 3
of a recipient’s SSR. Record 3 was terminated in December 1997 and had a
termination code of “T30.” In January 1998, Record 4 was established; however, the
outstanding overpayment was not transferred to this record. After communicating with
the FO, we confirmed that the outstanding overpayment amount was accurate. In


overpayments to the current records once they verified the overpayments in our sample, we could not
determine whether the overpayments were carried forward due to our audit or for some other reason.


Controls Over Recording SSI Overpayments (A-01-00-10005)                                          9
July 2000, the $8,600 was transferred to Record 4, so that SSA could begin recovering
this overpayment.

Differences Between OIG Sample Population and SSA’s Debt Recovery Program

The population selected in the initial July/August 2000 run of the Debt Recovery
Program differed from our audit population in two additional ways:

•	 The Debt Recovery Program included SSRs with outstanding overpayments of
   $30 or greater. Our population was limited to outstanding overpayments of $500 or
   greater.

•	 We limited our population to outstanding overpayments that occurred in or after
   1990. SSA personnel stated they did not limit the selection of their population
   based on timeliness.

By limiting our sample population, we concentrated our audit efforts on those cases
with the highest impact on SSA’s funds and on overpayments which occurred more
recently. SSA’s inclusion of such overpayments will result in increased recoveries
beyond those we estimated based on our sample population.




Controls Over Recording SSI Overpayments (A-01-00-10005)                           10
                                                   Conclusions and
                                                   Recommendations
Since at least 1990, SSA has known that its internal controls were not able to ensure
that SSI overpayments on closed records were identified and collected when SSA
resumed benefit payments to SSI recipients by establishing new SSRs. Since 1997,
SSA has implemented improved controls in this area through MSSICS and TREBDET.
However, these system improvements were prospective in nature and are not effective
under all circumstances. As a result, SSA has to clean-up SSRs created prior to
TREBDET and periodically review new SSRs created outside MSSICS. To address
this weakness, SSA developed a Debt Recovery Program. Approximately 54 percent of
the 38,194 cases we identified meet SSA’s criteria for being moved to new records by
the Debt Recovery Program. If these individuals received benefit payments during
July or August 2000, when the Debt Recovery Program was run, these overpayments
should have been moved to new records. While SSA’s July/August 2000 run of the
Debt Recovery Program was successful, approximately 46 percent of the overpayments
we identified remain on prior SSRs and still need to be moved forward to new SSRs.

We recommend that SSA:

1. 	 Continue to periodically run the Debt Recovery Program to ensure that prior
     overpayments on closed records are identified and pursued for collection.

2. 	 Pursue collection of the 17,675 overpayments we identified which do not meet the
     criteria for selection by the Debt Recovery Program.

3. 	 Review the 20,519 overpayments we identified that meet the criteria for being
     moved forward by the Debt Recovery Program and ensure that these outstanding
     overpayments were transferred to new SSRs.

AGENCY COMMENTS

In response to our draft report, SSA agreed with our recommendations. Specifically,
SSA stated that they are evaluating the feasibility of running the Debt Recovery
Program daily. In response to our second recommendation, SSA stated they agree that
they should pursue collection of overpayments if it is feasible and cost effective to do
so. SSA stated that in order to make this determination they will evaluate the criteria
used to select cases for the Debt Recovery Program.




Controls Over Recording SSI Overpayments (A-01-00-10005)                           11
                                                 Appendices





Controls Over Recording SSI Overpayments (A-01-00-10005)
                                                                               Appendix A

Sampling Methodology and Results
We obtained from the Social Security Administration a data extract from the
Supplemental Security Record (SSR) of 16.5 million records for individuals who
received benefit payments in February 2000 and who had overpayments on their
records. Through analysis of these 16.5 million records, we identified 38,194 SSRs
with $100,594,455 in overpayments on closed SSRs that were not transferred to the
current SSRs. We selected a random sample of 150 cases from this population.

                           Sample Results and Projections
   Population size                                                                   38,194
   Sample size                                                                          150
                                      Attribute Projections
   Sampled cases with overpayments not transferred to new SSRs                         138
   Projection of cases with overpayments not transferred to new                     35,138
   SSRs
   Projection lower limit                                                           33,369
   Projection upper limit                                                           36,405
                                 Dollar Projections/Estimates
   Sample Results – Outstanding overpayments not transferred to                   $367,343
   new SSRs
   Projection – Outstanding overpayments not transferred to new                 $93,535,250
   SSRs (138 cases)
   Projection lower limit                                                       $77,912,800
   Projection upper limit                                                      $109,157,699
   Sample Results – Overpayment amounts that should have been                      $168,368
   recovered through May 2000 (137 cases)
   Projection – Overpayment amounts that should have been                       $42,871,097
   recovered through May 2000
   Projection lower limit                                                       $38,235,082
   Projection upper limit                                                       $47,507,112
   Sample Results – Overpayments that should have been                               $6,573
   recovered from the recipients’ May 2000 benefit payments
   (131 cases)
   Projection – Overpayments that should have been recovered                     $1,673,534
   from the recipients’ May 2000 benefit payments
   Projection lower limit                                                        $1,583,973
   Projection upper limit                                                        $1,763,095
   Estimated recoveries over the next 12 months (projected                      $20,082,408
   monthly recovery X 12 months)
   Note: All projections were calculated at the 90 percent confidence level.




Controls Over Recording SSI Overpayments (A-01-00-10005)
                                                           Appendix B


Agency Comments





Controls Over Recording SSI Overpayments (A-01-00-10005)
                                                       .J'\.SE('~
                                                      cSj~
                                                     .5?,/~'TS~~
                                                     ~ ""111#
                                                       ../I;JsTiJ'

                                        SOCIAL          S:EQURITY

MEMORANDUM


                                                                       ,.
           Apri110, 2001                                                         Refer   To:   ENTER   INFO



To:        JamesG. Ruse, Jr.
           Inspector General

           Larry G. Massanari
                                       r.
           Acting Commissioner of Social Security

Subject:   Office of the Inspector General (OIG) Draft Report, "Controls Over Recording Supplemental
           Security Income Overpayments" (A-OI-00-l0005)-INFORMATION


           Our comments to the subject report are attached. Staff questions may be directed to
           OdessaJ. Wood~ at extensionSO378.

           Attachment:
           SSA Response
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE

OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT, "CONTROLS

OVER SUPPLEMENTAL SECURITY INCOME OVERPAYMENTS” (A-01-00-10005)


Thank you for the opportunity to review the subject draft report.

We offer the following comments.


Recommendation 1


Continue to periodically run the Debt Recovery Program to ensure

that prior overpayments on closed records are identified and

pursued for collection.


SSA Comment


We agree with this recommendation. The Project Scope Agreement

(PSA) for the Post-83 Debt Write-off Project prescribes

periodically running the Debt Recovery Program. When the Debt

Recovery Program was developed last year, we intended to run this

program annually, consistent with the PSA. We are now evaluating

the feasibility of running the Debt Recovery Program daily. This

would eliminate any further increase in the backlog of debt on

prior records.


Recommendation 2


Pursue collection of the 17,675 overpayments we identified which

do not meet the criteria for selection by the Debt Recovery

Program.


SSA Comment


We agree that SSA should pursue collection of these overpayments

if it is feasible and cost effective to do so. To help make this

determination, we plan to evaluate the criteria used to select

cases for the Debt Recovery Program. Consistent with this

recommendation, the following actions are either completed or

underway:


A.	    In June 2001, SSA plans to remove an indicator

       present on some records that interferes with the

       transfer of overpayments to current pay records

       for recovery.


B.	    Based on a Terminated Record Balancing and Debt
       Transfer (TREBDET) Corrective Action Review completed
       in September 2000, a communiqué was issued in
       November 2000 to all Regional Commissioners
       reinforcing the need to transfer uncollected



Controls Over Recording SSI Overpayments (A-01-00-10005)       B-2
       overpayments to the latest SSR. The communiqué

       included a copy of the TREBDET Corrective Action

       Review report.


Beyond these initiatives, we will explore ways to improve or

augment existing controls (e.g., TREBDET, the Debt Recovery

Program and overpayment alerts) to facilitate overpayment

transfers or clearances. This will include an assessment of:

1) The extent to which automatic record balancing and overpayment

transfer can be enhanced to address the conditions cited in the

audit report; and 2) the adequacy of existing overpayment alerts.

We anticipate that any initiative to improve overpayment controls

will require one or more project proposals in Systems’ 5-Year

Planning process.


Recommendation 3


Review the 20,519 overpayments we identified that meet the

criteria for being moved forward by the Debt Recovery Program and

ensure that these outstanding overpayments were transferred to

new SSRs.


SSA Comment


As mentioned in the response to Recommendation 1 above, SSA will

continue to run the Debt Recovery Program to ensure uncollected

overpayments that meet the criteria for transfer using the Debt

Recovery Program will be transferred to current pay accounts. This

would include any accounts identified by this audit.



[In addition to the items listed above, SSA also provided technical comments which have
been addressed in this report.]




Controls Over Recording SSI Overpayments (A-01-00-10005)                           B-3
                                                                       Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts

    Rona Rustigian, Acting Director, Disability Program Audit Division, (617) 565-1819

Acknowledgments

In addition to those named above:

    Katie Hallock, Auditor

    Kevin Joyce, Auditor

    Joseph LoVecchio, Auditor

    David Mazzola, Auditor-in-Charge



For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-01-00-10005.




Controls Over Recording SSI Overpayments (A-01-00-10005)
                             DISTRIBUTION SCHEDULE


                                                                              No. of
                                                                             Copies

Commissioner of Social Security
                                                  1
Management Analysis and Audit Program Support Staff, OFAM
                       10
Inspector General
                                                                1
Assistant Inspector General for Investigations
                                   1
Assistant Inspector General for Executive Operations
                             3
Assistant Inspector General for Audit
                                            1
Deputy Assistant Inspector General for Audit
                                     1
  Director, Systems Audit Division
                                               1
  Director, Financial Management and Performance Monitoring Audit Division        1
  Director, Operational Audit Division                                            1
  Director, Disability Program Audit Division                                     1
  Director, Program Benefits Audit Division                                       1
  Director, General Management Audit Division                                     1
Issue Area Team Leaders 
                                                        25
Income Maintenance Branch, Office of Management and Budget
                       1
Chairman, Committee on Ways and Means
                                            1
Ranking Minority Member, Committee on Ways and Means
                             1
Chief of Staff, Committee on Ways and Means
                                      1
Chairman, Subcommittee on Social Security
                                        2
Ranking Minority Member, Subcommittee on Social Security
                         1
Majority Staff Director, Subcommittee on Social Security
                         2
Minority Staff Director, Subcommittee on Social Security
                         2
Chairman, Subcommittee on Human Resources
                                        1
Ranking Minority Member, Subcommittee on Human Resources
                         1
Chairman, Committee on Budget, House of Representatives
                          1
Ranking Minority Member, Committee on Budget, House of Representatives            1
Chairman, Committee on Government Reform and Oversight                            1
Ranking Minority Member, Committee on Government Reform and Oversight             1
Chairman, Committee on Governmental Affairs                                       1
Ranking Minority Member, Committee on Governmental Affairs                        1


Controls Over Recording SSI Overpayments (A-01-00-10005)
Chairman, Committee on Appropriations, House of Representatives              1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Committee on Appropriations, U.S. Senate                           1
Ranking Minority Member, Committee on Appropriations, U.S. Senate            1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate              1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                 1
Chairman, Committee on Finance                                               1
Ranking Minority Member, Committee on Finance                                1
Chairman, Subcommittee on Social Security and Family Policy                  1
Ranking Minority Member, Subcommittee on Social Security and Family Policy   1
Chairman, Senate Special Committee on Aging                                  1
Ranking Minority Member, Senate Special Committee on Aging                   1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                             1
President, National Council of Social Security Management Associations,
  Incorporated                                                               1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                               1
Social Security Advisory Board                                               1
AFGE General Committee                                                        9
President, Federal Managers Association                                      1
Regional Public Affairs Officer                                              1


Total                                                                        97




Controls Over Recording SSI Overpayments (A-01-00-10005)
              Overview of the Office of the Inspector General

                                     Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of
the Social Security Administration’s (SSA) programs and makes recommendations to
ensure that program objectives are achieved effectively and efficiently. Financial
audits, required by the Chief Financial Officers Act of 1990, assess whether SSA’s
financial statements fairly present the Agency’s financial position, results of operations,
and cash flow. Performance audits review the economy, efficiency, and effectiveness
of SSA’s programs. OA also conducts short-term management and program
evaluations focused on issues of concern to SSA, Congress, and the general public.
Evaluations often focus on identifying and recommending ways to prevent and minimize
program fraud and inefficiency.

                              Office of Executive Operations
OEO supports the OIG by providing information resource management; systems
security; and the coordination of budget, procurement, telecommunications, facilities
and equipment, and human resources. In addition, this office is the focal point for the
OIG’s strategic planning function and the development and implementation of
performance measures required by the Government Performance and Results Act.
OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from SSA,
as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates
responses to Congressional requests for information, and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.


                                Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related
to fraud, waste, abuse, and mismanagement of SSA programs and operations. This
includes wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters,
representative payees, third parties, and by SSA employees in the performance of their
duties. OI also conducts joint investigations with other Federal, State, and local law
enforcement agencies.

                           Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the
Inspector General on various matters, including: 1) statutes, regulations, legislation,
and policy directives governing the administration of SSA’s programs; 2) investigative
procedures and techniques; and 3) legal implications and conclusions to be drawn from
audit and investigative material produced by the OIG. The Counsel’s office also
administers the civil monetary penalty program.
